U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Matthew T. Albence, et al., v. Maria Angelica Guzman Chavez, et al.,
No. 19-897
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on June 15, 2020.
Petitioners’ opening brief on the merits is currently due July 30, 2020.
In order to accommodate scheduling difficulties and the press of other cases, petitioners
respectfully request, under Rule 30.4 of the Rules of this Court, an extension to and including
August 14, 2020, within which to file the opening brief and joint appendix. Counsel for
respondents consents to that request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-0897
ALBENCE, MATTHEW T., ACTING DIR. OF US
IMMIGRATION & CUSTOMS ENFORCEMENT, ET
AL.
MARIA ANGELICA GUZMAN CHAVEZ, ET AL.

PAUL WHITFIELD HUGHES, III
MCDERMOTT, WILL & EMERY, LLP
500 N. CAPITOL STREET, NW
WASHINGTON , DC 20001
202-756-8981
PHUGHES@MWE.COM
SIMON YEHUDA SANDOVAL-MOSHENBERG
LEGAL AID JUSTICE CENTER
6066 LEESBURG PIKE
SUITE 520
FALLS CHURCH, VA 22041
703-720-5605
SIMON@JUSTICE4ALL.ORG

